No. 19-1080
IN THE

Supreme Court of the United States
___________

ARCHER AND WHITE SALES, INC.,
Cross-Petitioner,
v.
HENRY SCHEIN, INC.
___________

Respondent.

On Cross-Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
___________

BRIEF OF AMICUS CURIAE PROFESSOR
GEORGE A. BERMANN IN SUPPORT OF
CROSS-PETITIONER
___________

J. SAMUEL TENENBAUM *
BLUHM LEGAL CLINIC
COMPLEX CIVIL LITIGATION
AND INVESTOR PROTECTION
CENTER
NORTHWESTERN PRITZKER
SCHOOL OF LAW
375 East Chicago Avenue
Chicago, Illinois 06011
(312) 503-4808
s-tenenbaum@
law.northwestern.edu
Counsel for Amicus Curiae
April 2, 2020

* Counsel of Record

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES.................................

ii

INTEREST OF AMICUS CURIAE ......................

1

SUMMARY OF ARGUMENT ...............................

3

ARGUMENT..........................................................

11

I. THE INCORPORATION OF ARBITRATION RULES CONTAINING “COMPETENCE-COMPETENCE”
LANGUAGE
DOES NOT CONSTITUTE THE “CLEAR
AND UNMISTAKABLE” EVIDENCE OF
AN INTENT TO ARBITRATE ARBITRABILITY
REQUIRED
BY
FIRST
OPTIONS ......................................................

11

A. The First Options Test ..............................

11

B. The Competence-Competence Language
in Arbitration Rules Does Not Reflect
“Clear and Unmistakable” Evidence .......

13

CONCLUSION ......................................................

22

(i)

ii
TABLE OF AUTHORITIES
CASES

Page

Awuah v. Coverall N. Am., Inc., 554 F.3d 7
(1st Cir. 2009) ............................................ 9, 14
Belnap v. Iasis Healthcare, 844 F.3d 1272
(10th Cir. 2017) .......................................... 9, 10
BG Grp. PLC v. Republic of Argentina, 572
U.S. 25 (2014) ............................................
12
Duthie v. Matria Healthcare, Inc., 535 F.
Supp. 2d 909 (N.D. Ill.), aff’d, 540 F.3d
544 (7th Cir. 2008) .....................................
10
Fallo v. High-Tech Inst., 559 F.3d 874 (8th
Cir. 2009) ...................................................
10
First Options of Chi., Inc. v. Kaplan, 514
U.S. 938 (1995) ...................................... 2, 12, 18
Green v. SuperShuttle Int’l, Inc., 653 F.3d
766 (8th Cir. 2011) .....................................
9
Henry Schein, Inc. v. Archer & White Sales,
Inc., 139 S. Ct. 524 (2019) ......................... 3, 6
Howsam v. Dean Witter Reynolds, Inc., 537
U.S. 79 (2002) .................................... 3, 7, 12, 21
Oracle Am., Inc. v. Myriad Grp., A.G., 724
F.3d 1069 (9th Cir. 2013) .................... 9, 10, 14
Petrofac, Inc. v. DynMcDermott Petroleum
Operations Co., 687 F.3d 671 (5th Cir.
2012) ..................................................... 9, 10, 14
Rent-A-Center, West, Inc. v. Jackson, 561
U.S. 63 (2010) ............................................ 8, 13
Riley Mfg. Co. v. Anchor Glass Container
Corp., 157 F.3d 775 (10th Cir. 1998) ........
9
STATUTES
9 U.S.C. § 3 ....................................................
11
9 U.S.C. § 4 .................................................... 11, 15

iii
TABLE OF AUTHORITIES—continued
Page
OTHER AUTHORITIES
Convention on the Recognition and Enforcement of Foreign Arbitral Awards,
art. II, June 10, 1958, 330 U.N.T.S. 3 ......
Emmanuel Gaillard & Yas Banifatemi,
Negative
Effect
of
CompetenceCompetence: The Rule of Priority in Favor of the Arbitrators, in Enforcement of
Arbitration Agreements and International Arbitral Awards: The New York
Convention in Practice (Emmanuel Gaillard & Domenico Di Pietro eds., 2008) .....
George A. Bermann, The “Gateway” Problem in International Commercial Arbitration, 37 Yale J. Int’l L. 1 (2012) ................
ICDR Int’l Dispute Resolution Procedures,
art. 19(1) (June 1, 2014) ............................
John J. Barceló III, Who Decides the
Arbitrators’ Jurisdiction? Separability
and
Competence-Competence
in
Transnational Perspective, 36 Vand. J.
Transnat’l L. 1115 (2003) ..........................
Restatement of the U.S. Law of International Commercial and Investor-State
Arbitration § 2.8 (Am. L. Inst. 2019) ........
Rules of Arbitration of the Int’l Chamber of
Commerce, art. 6(3) (Mar. 1, 2017) ...........
U.N. Comm’n on Int’l Trade Law Arbitration Rules, art. 23(1), G.A. Res. 65/22,
U.N. Doc. A/RES/65/22 (Jan. 10, 2011) ....

15

16
20
14

16
19
14
14

iv
TABLE OF AUTHORITIES—continued
Page
COURT DOCUMENTS
Oral Argument Transcript, Henry Schein,
Inc. v. Archer & White Sales, Inc., No. 171272 (U.S. Oct. 29, 2018) ......................... 4, 5, 20
Petition Appendix, Henry Schein, Inc. v.
Archer & White Sales, Inc., No. 19-963
(U.S. Jan. 31, 2020) ....................................
9

INTEREST OF AMICUS CURIAE1
Amicus curiae George A. Bermann is the Jean
Monnet Professor of EU Law, Walter Gellhorn Professor of Law, and the Director of the Center for International Commercial and Investment Arbitration
(CICIA) at Columbia Law School. A Columbia Law
School faculty member since 1975, Professor Bermann teaches courses in, and has written extensively
on, transnational dispute resolution (international
arbitration and litigation), European Union law, administrative law, and WTO law. He is an affiliated
faculty member of the School of Law of Sciences Po in
Paris, the MIDS Master’s Program in International
Dispute Settlement in Geneva, and the LL.M. program in international dispute resolution at the Institut des Sciences Politiques (Sciences Po) in Paris.
Professor Bermann is also an active international
arbitrator in commercial and investment disputes;
chief reporter of the ALI’s Restatement of the U.S.
Law of International Commercial and Investor-State
Arbitration; co-author of the UNCITRAL Guide to the
New York Convention on the Recognition and Enforcement of Foreign Arbitral Awards; chair of the
Global Advisory Board of the New York International
Arbitration Center (NYIAC); co-editor-in-chief of the
American Review of International Arbitration; and
founding member of the governing body of the ICC
International Court of Arbitration.

1 No counsel for a party authored this brief in whole or in
part, nor did any person or entity, other than amicus or its
counsel, make a monetary contribution intended to fund the
preparation or submission of this brief. This brief is submitted
pursuant to the consent provided by cross-petitioner and crossrespondent.

2
Professor Bermann is interested in this case because it presents a highly important but unsettled
issue of domestic and international arbitration law
relating to the application of the test in First Options
of Chi., Inc. v. Kaplan, 514 U.S. 938 (1995), for determining whether parties have agreed to delegate to
arbitral tribunals primary responsibility for determining arbitrability, i.e., the enforceability of agreements to arbitrate. The specific issue is whether incorporation of rules of arbitral procedure constitutes
“clear and unmistakable” evidence, within the meaning of First Options, that the parties intended to
withdraw from courts’ authority to determine the arbitrability of a dispute, on account of the fact that
those rules, as in this case, contain a clause authorizing arbitrators to determine their own jurisdiction.
Although a majority of courts have found the incorporation of rules containing such a provision to
satisfy First Options’ “clear and unmistakable” evidence test, the ALI’s Restatement of the U.S. Law of
International Commercial and Investor-State Arbitration has concluded, after extended debate, that
these cases were incorrectly decided because incorporation of such rules cannot be regarded as manifesting the “clear and unmistakable” intention that First
Options requires. This case presents an opportunity
to clarify what constitutes “clear and unmistakable”
evidence, within the meaning of First Options, and
thereby preserve the proper balance under federal
law between the roles of courts and arbitral tribunals
in determining arbitrability.

3
SUMMARY OF ARGUMENT
This case involves the classic question of who has
primary responsibility for determining arbitrability –
a court or an arbitrator. Since this Court’s decision
in First Options, the law has been settled that “[t]he
question of whether the parties have submitted a
particular dispute to arbitration, i.e., the ‘question of
arbitrability’ is ‘an issue for judicial determination
[u]nless the parties clearly and unmistakably provide
otherwise.’” Howsam v. Dean Witter Reynolds, Inc.,
537 U.S. 79, 83 (2002) (alteration in original). What
remains unsettled, however, is whether the incorporation in a contract of arbitral rules containing a provision empowering a tribunal to determine its own
jurisdiction satisfies the “clear and unmistakable” evidence test.
When the present dispute first came before this
Court, the question was whether a proper delegation
could be avoided when the challenge to arbitrability
is “wholly groundless.” This Court ruled that no such
exception to an otherwise proper delegation exists.
Henry Schein, Inc. v. Archer & White Sales, Inc., 139
S. Ct. 524 (2019). The Court was not asked to, and
did not, address the premise on which the question of
the existence of a “wholly groundless” exception rested, namely whether the parties, in their arbitration
agreement, had made a delegation to the tribunal of
the authority to determine arbitrability in the first
place.
Although the Court had no occasion at that time to
decide whether incorporation by reference in an arbitration agreement of institutional rules conferring
authority on a tribunal to determine its own jurisdiction met First Options’ “clear and unmistakable” evidence test, it demonstrated considerable interest in

4
that subject both during oral argument and in its
opinion in the case.
At oral argument, several Justices expressed interest in, and questioned, the proposition that incorporation of institutional rules authorizing tribunals to determine their jurisdiction constitute “clear and unmistakable” evidence within the meaning of First Options. Significantly, they did so despite the Court not
having granted certiorari on that question.
Justice Ginsburg asked counsel to explain why the
arbitration agreement in the case should be read to
divest courts of authority to determine arbitrability:
But clear . . . and unmistakable delegation, why
can’t it be both; that is, that the arbitrator has
this authority to decide questions of arbitrability,
but it is not exclusive of the court? We have one
brief saying that that is indeed the position that
the Restatement has taken.
Oral Argument Transcript at 7, Henry Schein, Inc. v.
Archer & White Sales, Inc., No. 17-1272 (U.S. Oct. 29,
2018) (hereinafter “Transcript”).
But the district court . . . decided on alternative
grounds, and wasn't the district court's first decision that this contract did not have a sufficiently
clear and unmistakable delegation? It’s nothing
like that.
Id. at 10.
[W]hy do you have the evidence? When the . . .
model case is this Court's Rent-a-Car [sic] decision, and there the . . . clause said the arbitrator,
not the court, has exclusive authority. And, here,
. . . we're missing both the arbitrator, to the exclusion of the court, and the arbitrator has exclusive authority.

5
Id. at 18 (italics added).
Similarly, Justice Kagan inquired:
[I]f you look at First Options, First Options is a
case where we said we're not going to treat these
delegation clauses in exactly the same way as we
treat other clauses. And there was an idea that
people don't really think about the question of
who decides, and so we're going to hold parties to
this higher standard, the clear and unmistakable
intent standard.
Id. at 17 (italics added).
Justice Breyer as well underscored the importance,
before reaching the “wholly groundless” exception, of
finding “clear and unmistakable” evidence within the
meaning of First Options:

[S]o you say step 1. Is there clear and unmistak-

able evidence that an arbitrator is to decide
whether a particular matter X is arbitrable? Is
that right?
Id. at 20.
Step 1 is we have to decide . . . whether there is a
clear and unmistakable commitment to have this
kind of matter decided in arbitration.
Id. at 24.
Justice Gorsuch in turn asked:
[T]here’s just maybe a really good argument that
clear and unmistakable proof doesn't exist in this
case of a desire to go to arbitration and have the
arbitrator decide arbitrability? And why doesn't
that take care of 90 percent of these kinds of cases?
Id. at 43.

6
Finally, in remanding the case, the Court, in a
unanimous decision authored by Justice Kavanaugh,
invited the Court of Appeals to address the question
of whether there was a “clear and unmistakable” delegation in the first place:
We express no view about whether the contract
at issue in this case in fact delegated the arbitrability question to an arbitrator. The Court of
Appeals did not decide that issue. Under our cases, courts “should not assume that the parties
agreed to arbitrate arbitrability unless there is
clear and unmistakable evidence that they did
so.” First Options, 514 U.S., at 944 (alterations
omitted). On remand, the Court of Appeals may
address that issue in the first instance, as well as
other arguments that Archer and White has
properly preserved.
Schein, 139 S. Ct. at 531.
It is suggestive of the importance of the question
whether a delegation had in fact been made that that
several of the Justices brought the question to the
surface even though certiorari had not been granted
on that question and counsel on neither side had
briefed it.
That question, however, is now before the Court,
and it warrants the Court’s attention. As demonstrated below, the mere presence in the rules that the
parties incorporated by reference in their arbitration
clause of a simple provision empowering a tribunal to
determine its own jurisdiction (known in international arbitration circles as a “competence-competence”
clause) falls far short of – and cannot properly be
viewed as – establishing by “clear and unmistakable”
evidence that the parties intended to withdraw from
courts the authority to determine issues on which the

7
parties’ consent to arbitrate depends. These issues
include whether an arbitration agreement was
formed, whether the arbitration agreement is valid
and whether it binds a non-signatory, as well as
whether the dispute falls within the scope of that
agreement. They also include “whether an arbitration clause in a concededly binding contract applies to
a particular type of controversy.” Howsam, 537 U.S.
at 84. This Court on several occasions has held that
questions of the arbitrability of a dispute, if raised,
are properly decided by the courts.
These are issues that this Court has also termed
“gateway” issues owing to their fundamental importance in terms of party consent. They are called
“gateway” issues precisely because, presumptively, a
court that is asked to resolve them can and must do
so before referring the parties to arbitration. Simply
put, gateway issues implicate the principle of party
consent on which the entire edifice of arbitration is
built and on which its legitimacy depends.
This Court accordingly made it clear in First Options that access to a court on fundamental issues of
consent to arbitrate is so serious a matter that the
parties’ intent to make a delegation must be nothing
less than “clear and unmistakable.” This is so because the effect of a valid delegation is to deprive parties of the opportunity to demonstrate to a court that
they did not in fact consent to arbitration of the dispute at hand, and thereby also divest courts of the
possibility that they would otherwise have of determining that all-important question independently.
The question whether an arbitration agreement actually meets the standard established by First Options standard has been raised in several lower federal court decisions. In virtually all cases in which a
court has found “clear and unmistakable” evidence of

8
an intent to delegate arbitrability, it has based that
finding on nothing more than the simple presence in
institutional rules that the parties incorporated by
reference in their arbitration agreement of a standard competence-competence clause.
The earlier judgment of the Fifth Circuit in this
case is illustrative. The arbitration agreement did
not itself contain any language whatsoever to support
the notion that the parties delegated questions of arbitrability to a tribunal, much less any language suggesting that they did so clearly and unmistakably.
The clause should be compared to the clause in RentA-Center, West, Inc. v. Jackson, 561 U.S. 63 (2010),
the one and only case in which this Court was ever
presented with a putative delegation. The Rent-ACenter clause provided that:
[T]he Arbitrator, and not any federal, state, or
local court or agency, shall have exclusive authority to resolve any dispute relating to the interpretation, applicability, enforceability or formation of this Agreement including, but not limited to any claim that all or any part of this
Agreement is void or voidable.
Id. at 66.
By contrast, there is in this case nothing approaching the language in the Rent-A-Center arbitration
agreement. In order to find a delegation, the Fifth
Circuit was reduced to treating the incorporation by
reference of the rules of the American Arbitration Association
(“AAA”)
containing
a
competencecompetence clause as if it clearly and manifestly evidenced an intention to delegate.
In this case, the Magistrate Judge found incorporation of the AAA Rules in the parties’ arbitration
agreement to constitute a “clear and unmistakable”

9
delegation. The district court disagreed, finding that
“there is no reason to believe that incorporation of the
AAA rules . . . should indicate a clear and unmistakable intention that the parties agreed to arbitrate the
question of arbitrability in these circumstances.” Petition Appendix at 32a, Henry Schein, Inc. v. Archer
& White Sales, Inc., No. 19-963 (U.S. Jan. 31, 2020).
In reversing the district court, the Court of Appeals
relied upon its earlier decision in Petrofac, Inc. v.
DynMcDermott Petroleum Operations Co., 687 F.3d
671, 675 (5th Cir. 2012), citing it for the proposition
that “the express adoption of [the AAA Rules] presents clear and unmistakable evidence that the parties agreed to arbitrate arbitrability.” Id. The court
then went on to invoke the “wholly groundless” doctrine that this Court eventually rejected.
The view that incorporation of institutional rules
containing a competence-competence clause meets
the First Options test for delegation has won favor
among the courts of appeals.2 However, none of these
See, e.g., Oracle Am., Inc. v. Myriad Grp., A.G., 724 F.3d
1069, 1074–75 (9th Cir. 2013) (noting that the “prevailing view”
is that incorporation of the UNCITRAL rules “is clear and unmistakable evidence that the parties agreed the arbitrator
would decide arbitrability”); Green v. SuperShuttle Int’l, Inc.,
653 F.3d 766, 769 (8th Cir. 2011) (“By incorporating the AAA
Rules, the parties agreed to allow the arbitrator to determine
threshold questions of arbitrability.”); Awuah v. Coverall N.
Am., Inc., 554 F.3d 7, 11 (1st Cir. 2009) (incorporation of AAA
rules provides “clear and unmistakable” evidence that parties
meant to arbitrate arbitrability).
2

By contrast, the Tenth Circuit, in Riley Mfg. Co. v. Anchor
Glass Container Corp., 157 F.3d 775, 777 n.1, 780 (10th Cir.
1998), took the position that an arbitration agreement incorporating AAA rules did not indicate “a specific intent to submit to
an arbitrator” the question of arbitrability.” In a later case,
Belnap v. Iasis Healthcare, 844 F.3d 1272, 1284 (10th Cir. 2017),

10
decisions provides any reasoning whatsoever as to
how or why incorporation of such arbitral rules meets
the “clear and unmistakable” evidence test. They
simply assume, without analysis, that if arbitrators
have authority to determine arbitral jurisdiction, the
courts necessarily have no such authority. As shown
below, that is not the case.
Those courts that have found a delegation have
done so without the benefit of any clarification of the
First Options standard by this Court. Because the
effect of a delegation is so consequential to the issue
of arbitrability, it calls for renewed attention by this
Court, which alone can provide an authoritative understanding of what the First Options test means and
how it should be applied. For this reason, the case for
granting the petition is especially strong.
The question raised here was squarely before the
American Law Institute in the context of the recently
that court found that adoption of a set of rules containing a
competence-competence clause did constitute “clear and unmistakable” evidence of a delegation on the ground that the rules in
the two cases were worded differently. It found that the rules in
Riley did not include a provision “concerning the arbitration of
arbitrability.” Id.
The fact remains that the Fifth, Eighth and Ninth Circuit
Courts of Appeals all read Riley as rejecting the idea that competence-competence clauses in institutional rules manifest the
necessary “clear and unmistakable” evidence, thereby creating a
circuit split on the issue. See Petrofac, Inc., 687 F.3d at 675;
Fallo v. High-Tech Inst., 559 F.3d 874, 878 (8th Cir. 2009); Oracle Am., Inc., 724 F.3d at 1074.
Also, in Duthie v. Matria Healthcare, Inc., 535 F. Supp. 2d
909, 916 (N.D. Ill.), aff’d, 540 F.3d 544 (7th Cir. 2008), the district court ruled that incorporation of AAA rules is not “clear
and unmistakable evidence” of agreement to arbitrate arbitrability when the arbitration clause does not provide for arbitration of all disputes.

11
approved and now official Restatement of the U.S.
Law of International Commercial and Investor-State
Arbitration (“Restatement”), and received there extremely close and careful attention. Upon full consideration, the Restatement concluded that the incorporation of arbitral rules like the AAA rules does not
in fact constitute “clear and unmistakable” evidence
of an intention to arbitrate arbitrability as required
by First Options.
ARGUMENT
I. THE INCORPORATION OF ARBITRATION
RULES CONTAINING “COMPETENCECOMPETENCE” LANGUAGE DOES NOT
CONSTITUTE THE “CLEAR AND UNMISTAKABLE” EVIDENCE OF AN INTENT TO
ARBITRATE ARBITRABILITY REQUIRED
BY FIRST OPTIONS
A. The First Options Test.
This case involves the threshold issue of who –
court or arbitrator – has primary responsibility for
deciding issues of arbitrability, notably whether an
arbitration agreement was formed, is valid, encompasses the claim sought to be arbitrated, and may
possibly be binding on a non-signatory.
In some cases, such as the present one, the issue of
arbitrability is first raised in a judicial proceeding to
enforce an arbitration clause, the proponent of the
arbitration agreement asking the court to compel arbitration or stay the lawsuit in favor of arbitration.
See 9 U.S.C. §§ 3–4. In these cases, in order to grant
that relief, the court must satisfy itself that the claim
is arbitrable in all respects, and it makes that determination independently.

12
In other cases, the issue of arbitrability is initially
raised before the arbitral tribunal in a challenge to
the arbitrator’s exercise of jurisdiction, rather than
before a court. In that situation, the tribunal, exercising its competence-competence will make that determination, proceeding with the case if it finds the
claim arbitrable, and dismissing the case if it does
not. However, a finding by the tribunal that the
claim is arbitrable may be challenged at a later point,
either in a proceeding to vacate the award or deny its
enforcement. There, too, the court will make its determination de novo and without deference to the tribunal’s finding as to arbitrability. See, e.g., First Options, 514 U.S. at 941, 947.
The crucial point is that, in either situation, a court
will at some point exercise its responsibility to determine independently whether the claim is or is not
arbitrable. It does so precisely because the principle
of consent, fundamental to arbitration, is at stake.
In First Options, this Court ruled that, while issues
of arbitrability, because of their importance, call for
independent judicial determination, the parties may,
in an exercise of party autonomy, agree that such issues shall be primarily for a tribunal to decide. However, the Court explicitly held that “[c]ourts should
not assume that the parties agreed to arbitrate arbitrability unless there is ‘clea[r] and unmistakabl[e]’
evidence that they did so.” Id. at 944 (alteration in
original) (quoting AT&T Techs., 475 U.S. at 649
(1986)). The Court has since on several occasions reiterated that “courts presume that the parties intend
courts, not arbitrators, to decide . . . disputes about
‘arbitrability’” unless “the parties clearly and unmistakably provide otherwise.’” BG Grp. PLC v. Republic of Argentina, 572 U.S. 25, 34 (2014); Howsam, 537
U.S. at 83.

13
As a result, delegation is not lightly to be found. In
Rent-A-Center, 561 U.S. at 69 n. 1, the Court reaffirmed that, in order for a delegation to be found, the
language used by the parties must unambiguously
establish the “parties’ manifestation of intent” to
withdraw from courts authority to resolve issues of
arbitrability.
In the intervening years, this Court has not had occasion to decide what language is necessary to constitute the “clear and unmistakable” evidence required
by First Options, so as to overcome the strong presumption that arbitrability is primarily for the
courts. In Rent-A-Center, the question did not arise
because the existence of a delegation was not contested. It was not contested because the parties had
agreed in the arbitration clause itself that the “‘Arbitrator, and not any federal, state or local court or
agency, shall have exclusive authority to resolve any
dispute relating to the interpretation, applicability,
enforceability or formation of this [Arbitration]
Agreement.” Id. at 66 (emphasis added).
B. The Competence-Competence Language
in Arbitration Rules Does Not Reflect
“Clear and Unmistakable” Evidence.
The language relied upon in this case to establish a
delegation under First Options is dramatically different from the language in Rent-A-Center. In the first
place, the parties did not, as in Rent-A-Center, express their intentions in this regard in the arbitration
agreement itself. The only basis asserted for finding
“clear and unmistakable” evidence of an intention to
delegate was a provision in the arbitration clause according to which disputes between the parties were to
be submitted to arbitration “in accordance with the
arbitration rules of the American Arbitration Association,” i.e., incorporating those rules by reference.

14
Rule 7 of the Commercial Arbitration Rules of the
American Arbitration Association like all modern arbitral rules,3 contains a competence-competence
clause stating that the “arbitrator shall have power to
rule on his or her own jurisdiction, including any objections with respect to the existence, scope or validity of the arbitration agreement.” In other words, the
parties agreed to the incorporation by reference of arbitral rules that confer power on arbitrators to decide
their own jurisdiction.
However, there is no indication in Rule 7 that the
conferral on arbitrators of authority to determine arbitrability divests courts of all authority to make that
determination. Nevertheless, courts have summarily
concluded, as has the Fifth Circuit, that “the express
adoption of these [arbitration] rules presents clear
and unmistakable evidence that the parties agreed to
arbitrate arbitrability.” Petrofac, Inc., 687 F.3d at
675.4
For several reasons, the courts drawing this inference are mistaken in doing so.
See, e.g., Rules of Arbitration of the Int’l Chamber of Commerce, art. 6(3) (Mar. 1, 2017) (“[A]ny question of jurisdiction . . .
shall be decided directly by the arbitral tribunal . . .”); ICDR
Int’l Dispute Resolution Procedures, art. 19(1) (June 1, 2014)
(“The arbitral tribunal shall have the power to rule on its own
jurisdiction, including any objections with respect to the existence, scope, or validity of the arbitration agreement(s) . . .”);
U.N. Comm’n on Int’l Trade Law Arbitration Rules, art. 23(1),
G.A. Res. 65/22, U.N. Doc. A/RES/65/22 (Jan. 10, 2011) (“The
arbitral tribunal shall have the power to rule on its own jurisdiction, including any objections with respect to existence or validity of the arbitration agreement.”).
3

4 See, e.g., Oracle Am., Inc., 724 F.3d at 1074–75 (incorporation of UNCITRAL rules is “clear and unmistakable evidence” of
intent to arbitrate arbitrability); Awuah, 554 F.3d at 11 (same
with respect to AAA rules).

15
First, the principle of competence-competence simply does not have the meaning attributed to it. All
that the principle does is authorize an arbitral tribunal, during the arbitral proceedings themselves, to
resolve challenges to its jurisdiction. A tribunal’s authority to do so was not to be taken for granted. Absent competence-competence, a tribunal whose jurisdiction is challenged arguably would have to suspend
proceedings and await a court determination of arbitral jurisdiction before proceeding. Disallowing tribunals from opining on their own jurisdiction would
be a recipe for delay and expense. The competencecompetence principle thus makes a real contribution
to the efficacy of arbitration as a means of dispute
resolution.
But it is another thing altogether to read competence-competence as making the tribunal’s authority
to determine its jurisdiction exclusive of a court’s authority to do so, if so requested.
Competencecompetence has simply never been understood in
United States law to render arbitral authority to determine arbitrability exclusive. Section 4 of the Federal Arbitration Act authorizes a court to compel arbitration “upon being satisfied that the making of the
agreement for arbitration . . . is not in issue.” 9
U.S.C. § 4. Similarly, the Convention on the Recognition and Enforcement of Foreign Arbitral Awards
(“New York Convention”) calls upon courts to enforce
an agreement to arbitrate unless they find it to be
“null and void, inoperative or incapable of being performed.” Art. II, June 10, 1958, 330 U.N.T.S. 3 (emphasis added). Thus, the presumption is that courts
have the authority to determine arbitrability—an authority that, under First Options, cannot in fact be
withdrawn with anything less than “clear and unmistakable” evidence of an intention to that effect.

16
This well-settled understanding of competencecompetence in United States law differs markedly
from the law of certain other countries, which have a
distinctly different conception of competencecompetence – one that is viewed as both vesting tribunals with authority to determine arbitrability and
divesting courts of that authority.5 A sharp distinction is drawn in the international arbitration literature between “positive” competence-competence,
which affirmatively confers on tribunals’ authority to
determine their jurisdiction, on the one hand, and
“negative” competence-competence, which deprives
courts of that authority prior to arbitration. The contrast between positive competence-competence, as
practiced in the United States, and negative competence-competence, which is championed in French
law, pervades the international arbitration literature.6 The fact that competence-competence in the

See generally Emmanuel Gaillard & Yas Banifatemi, Negative Effect of Competence-Competence: The Rule of Priority in
Favor of the Arbitrators, in Enforcement of Arbitration Agreements and International Arbitral Awards: The New York Convention in Practice 257 (Emmanuel Gaillard & Domenico Di
Pietro eds., 2008).
5

6 John J. Barceló III, Who Decides the Arbitrators’ Jurisdiction? Separability and Competence-Competence in Transnational
Perspective, 36 Vand. J. Transnat’l L. 1115, 1124 (2003):
Most discussions of competence-competence, especially in
U.S. literature, treat only the positive aspect of the doctrine,
which is a simple and uncontroversial notion. It means that,
. . . arbitrators are empowered to rule on their own jurisdiction; they are not required to stay the proceeding to seek judicial guidance. The doctrine has another, much more consequential aspect, known as the negative effect of competence-competence. It originated in French law, which is well
known for its pro-arbitration character. The negative effect
doctrine holds that in order to allow arbitrators to rule on

17
United States has a positive dimension only has never been contested. Thus, the presence of a competence-competence provision in institutional rules
merely reaffirms the uncontroversial proposition that
tribunals are not required to suspend proceedings if
their jurisdiction is challenged.
The meaning of competence-competence in United
States law should not now be radically changed merely because it has been inserted into the AAA Rules. If
competence-competence, while conferring on tribunals the authority to determine their jurisdiction,
does not divest courts of their authority to determine
the arbitrability of claims, a mere reference to it in a
set of institutional rules cannot possibly be construed
as “clear and mistakable” evidence of an intention to
deprive courts of that authority. Defined in the way
it has always been defined in United States law, a
reference to competence-competence not only falls
short of clearly and unmistakably evidencing an intention to delegate; it fails to evidence any such intention at all.
Second, the decision in First Options makes it altogether clear that judicial authority to determine arbitrability is the rule, and that its elimination is the exception. The “clear and unmistakable” standard cannot be understood any other way. If the mere inclusion of a competence-competence clause in the rules
adopted by the parties is treated as “clear and unmistakable” evidence, within the meaning of First Options, that rule and exception are plainly reversed,
and the presumption that First Options established
would altogether cease to exist. That simply cannot

their own jurisdiction . . . as an initial matter, court jurisdiction . . . should be constrained.

18
be the result that this Court had in mind in rendering that decision.
In reality, competence-competence provisions are
ubiquitous. They are found in virtually every modern
set of institutional rules and every modern arbitration law. As a result, it is the rare international arbitration that is conducted in the absence of a competence-competence provision. Such provisions have
become, for all practical purposes, “boiler-plate.”
Treating them all as “clear and mistakable” evidence
does nothing short of destroying the strong presumption in favor of judicial authority to determine arbitrability that First Options squarely established.
Third, divesting parties of a meaningful right of access to a court on matters of arbitrability, on the basis of boiler-plate in institutional rules that are only
incorporated by reference in an arbitration agreement, is simply unfair and contrary to the reasonable
expectations of a party. In First Options itself, the
Court pointedly remarked:
[The] . . . question . . . "who (primarily) should
decide arbitrability" is rather arcane. A party often might not focus upon that question or upon
the significance of having arbitrators decide the
scope of their own powers. And, given the principle that a party can be forced to arbitrate only
those issues it specifically has agreed to submit
to arbitration, one can understand why courts
might hesitate to interpret silence or ambiguity
on the "who should decide arbitrability" point as
giving the arbitrators that power, for doing so
might too often force unwilling parties to arbitrate a matter they reasonably would have
thought a judge, not an arbitrator, would decide.
514 U.S. at 945 (internal citations omitted).

19
The Restatement considered carefully the question
whether the incorporation of competence-competence
language from a set of arbitral rules should be taken
as “clear and unmistakable” evidence of an intention
to withdraw from courts their authority to determine
whether a party ever agreed to arbitrate, whether
such an agreement is valid under the law of contract,
or whether the dispute at hand is even covered by the
asserted agreement to arbitrate. The Restatement
found that none of the court decisions addressing this
issue provides any meaningful reasoning as to how or
why a competence-competence provision not only confers power on an arbitrator to determine arbitrability,
but withdraws that power from the courts. Restatement of the U.S. Law of International Commercial
and Investor-State Arbitration § 2.8, cmt. b, Reporters’ n. b (iii), (Am. L. Inst. 2019). That position was
unanimously adopted by the ALI when the entire Restatement was approved in May 2019.
Importantly, when a valid delegation is made, parties lose their right to a judicial determination of
their consent to arbitration, not only at the outset of a
dispute (as in the court of appeals cases cited above),
but also in any post-award proceeding to vacate or
enforce the arbitral award. This is exactly the situation that was presented to this Court in First Options, which involved a proceeding to vacate an
award, not an action to enforce an arbitration agreement. Thus, if a delegation is found to be valid under
First Options, it bars recourse to a court on the question of consent both before and after the arbitration.
The resulting loss of access to a court to determine
arbitrability is therefore total. This fact makes it all
the more imperative that the requirement under
First Options of “clear and unmistakable” evidence of
a delegation be strictly and narrowly applied.

20
Fourth, depriving parties of a right of access to a
court on matters of arbitrability is not only inimical
to the fundamental principle that parties are not required to submit their claims to arbitration without
their consent, and are entitled to a judicial determination of that matter, but also inevitably inimical to
the legitimacy of arbitration itself.7
It is worth recalling here the concern voiced by Justice Kagan when this case was last before the Court
[I]f you look at First Options, First Options is a
case where we said we're not going to treat these
delegation clauses in exactly the same way as we
treat other clauses. And there was an idea that
people don't really think about the question of
who decides, and so we're going to hold parties to
this higher standard, the clear and unmistakable
intent standard.
Transcript at 17.
If only for this reason, this Court should not allow
courts to find “clear and unmistakable” evidence on
as weak and unconvincing a basis as the presence of
perfectly ordinary competence-competence language
in the institutional rules to which an arbitration
clause may make reference. Such standard language
in virtually all institutional rules of arbitral procedure cannot bear the weight that is being assigned to
it by those who treat it as “clear and unmistakable”
evidence required by First Options.
The First Options framework is meant to protect
the legitimacy of arbitral proceedings by enabling
courts, if asked to do so, to determine independently
whether parties agreed to arbitrate. Issues of arbi7 George A. Bermann, The “Gateway” Problem in International Commercial Arbitration, 37 Yale J. Int’l L. 1 (2012).

21
trability, such as the question of whether the parties
actually and validly agreed to arbitrate a particular
dispute, go to the heart of arbitration, which is party
consent. This Court accordingly has stated time and
again that “’arbitration is a matter of contract . . . a
party cannot be required to submit to arbitration any
dispute which he has not agreed so to submit.’” Howsam, 537 U.S. at 83 (quoting Steelworkers v. Warrior
& Gulf Nav. Co., 363 U.S. 574, 582 (1960)).
In First Options, this Court allowed parties, by way
of exception, to delegate to an arbitral tribunal primary authority to determine the arbitrability of a
dispute. But, precisely to ensure the consensual nature of arbitration, the Court required a “clear and
unmistakable” demonstration of that intention. To
treat the incorporation by reference of competencecompetence language found in the altogether standard procedural rules of arbitral institutions as meeting that test is to turn First Options on its head, rendering it practically meaningless.

22
CONCLUSION
For the foregoing reasons, the Court should grant
the cross-petition and hold that the issue of arbitrability was primarily for the court, although for reasons different than those relied on by the Fifth Circuit.
Respectfully submitted,
J. SAMUEL TENENBAUM *
BLUHM LEGAL CLINIC
COMPLEX CIVIL LITIGATION
AND INVESTOR PROTECTION
CENTER
NORTHWESTERN PRITZKER
SCHOOL OF LAW
375 East Chicago Avenue
Chicago, Illinois 06011
(312) 503-4808
s-tenenbaum@
law.northwestern.edu
Counsel for Amicus Curiae
April 2, 2020

* Counsel of Record

